                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: A05080055                                                         11           Page 1 of 1



           A review identified copied text in the subject's' NSF proposal.2 The subject responded that her
           lack of quotation marks and citation to the web sources was due to the fact that she was writing
           the proposal at home, and further that the material was only general introductory material.
           Nevertheless, the subject agreed that the sources should have been cited. Further investigation
           revealed additional copied text in a second NSF proposal.3 The subject responds that by
           including a reference at the end of the paragraph in which the copied text appears, it is clear that
           she is not claiming the research work as her own. She does not provide an explanation for the
           appearance of the copied text without quotation marks. The extent of plagiarism in these NSF
           proposals does not rise to a level that justifies further action.

           Accordingly, this case is closed.




           1
               Redacted.
               Redacted.
           3
               Redacted.



 NSF OIG Form 2 (1 1/02)
